4

*

ATTACHMENT A

Rodgers v. State, 288 So.Sd 1038 (2019)
44 Fla. L. Weekly S251

288 So.3d 1038
Supreme Court of Florida.

[-1

Criminal Law

Time for proceedings

To be
considered timely filed as
newly discovered evidence, the successive
postconviction relief motion is required to have
been filed within one year of the date upon
which the claim became discoverable through
due diligence. Fla. R. Grim. P. 3.851.

Jeremiah M. RODGERS, Appellant,
v.

STATE of Florida, Appellee.
No. SC19-241
November 21,2019
Synopsis
Background: Following determinations affirming guilty plea
to first-degree murder, 934 So. 2d 1207, waiver of penalty
phase jury, 3 So. 3d 1127, and waiver of postconviction

[3]

’A' A-.\

| Holding:j The Supreme Court held that gender dysphoria
diagnosis was not newly discovered evidence, warranting
summary denial of successive motion for postconviction
relief.

Affirmed.

West Headnotes (4)

HI

Criminal Law £=» Interlocutory, Collateral,
and Supplemental}' Proceedings and Questions
Criminal Law

Review De Novo

Criminal Law €*» Post-conviction relief
The Supreme Court reviews the circuit court's
decision to summarily deny a successive motion
for post-conviction relief de novo, accepting the
movant's factual allegations as true to the extent
they are not refuted by the record, and affirming
the ruling if the record conclusively shows that
the movant is entitled to no relief. Fla. R. Crim.
P. 3.851.

Particular issues and cases

Court knew of symptoms attributed to gender
dysphoria diagnosis at time prisoner appealed
guilty plea to first-degree murder, waiver of
penalty phase jury, and waiver of postconviction
proceedings and counsel, including severe
depression, self-mutilation, and reported
suicidality, and thus diagnosis was not newly
discovered evidence, warranting summary denial
of successive motion for postconviction relief,
although medical community subsequently
assigned gender dysphoria name to the cause
of known symptoms, where prisoner became
aware of diagnosis after evaluation by a
psychiatrist and symptoms were included in
earlier postconviction motion. Fla. R. Crim. P.
3.85i(d)<TH2).

proceedings and counsel, L " 104 So. 3d 1087, prisoner under
sentence of death filed successive postconviction motion. The
Circuit Court, 1st Judicial Circuit, Santa Rosa County, John
F. Simon, J., denied motion. Prisoner appealed.

Procedural Posture(s): Appellate Review; Post-Conviction
Review.

Criminal Law

[4|

Criminal Law #=* Newly discovered evidence
To prevail on a newly discovered evidence
claim on a motion for postconviction relief, two
requirements must be met: (1) the evidence must
not have been known by the trial court, the party,
or counsel at the time of trial, and it must appear
that the defendant or defense counsel could not
have known of it by the use of diligence; and
(2) the newly discovered evidence must be of
such a nature that it would probably produce an
acquittal on retrial. Fla. R. Crim. P. 3.851.

An Appeal from the Circuit Court in and for Santa
Rosa County, John Franklin Simon, Jr., Judge - Case No.
571998CF000274XXAXMX

WESfiAW !9 2020 Thomson Reuters. No claim to engine! U.S. Government Works

1

Rodgers v. State, 288 So,3d 1038 (2019)
44 Fla. L. Weekly S251

Attorneys and Law Firms
Terri L. Backhus, Chief, and Kimberly Sharkey, Attorney,
Capital Habeas Unit, Office of the Federal Public Defender,
Northern District of Florida, Tallahassee, Florida, for
Appellant
Ashley Moody, Attorney General, and Charmaine M.
Millsaps, Senior Assistant Attorney General, Tallahassee,
Florida, for Appellee
Opinion
PER CURIAM.
*1039 (1 j Jeremiah M. Rodgers, a prisoner under sentence
of death, who now goes by the name Jenna Rodgers,
appeals the circuit court's summary denial of a successive
postconviction motion filed pursuant to Florida Rule of
Criminal Procedure 3.851. We have jurisdiction. See art.
Y § 3(b)( 1). Fla. Const. Although Rodgers previously
waived postconviction proceedings and counsel and this
Court affirmed the validity of the waiver on appeal, Rodgers
now argues that a diagnosis of gender dysphoria is newly
discovered evidence that Rodgers was incompetent to plead
guilty to first-degree murder, see Rodgers v. State (Rodgers
I). 934 So. 2d 1207 (Fla. 2006), to waive a penalty phase
jury, see Rodgers v: State (Rodgers II), 3 So. 3d 1127 (Fla.
2009), and to waive postconviction proceedings and counsel,
Rodgers v. State (Rodgers IE), No. SC 11-1401.104 So. 3d
1087, 2012 WL 5381782 (Fla. Oct. 17, 2012) (unpublished),
thereby invalidating this Court's prior decision affirming the
denial of Hurst * relief based on Rodgers' waiver of a penalty
phase jury, see Rodgers v. State (Rodgers IV). 242 So. 3d 276
(Fla. 2018). The circuit court found Rodgers' motion untimely
and summarily denied it. We agree and affirm.2
[21 “[T]o be considered timely filed as newly discovered
evidence, the successive rule 3.851 motion was required to
have been filed within one year of the date upon which the
claim became discoverable through due diligence.” Jimenez
v. State, 997 So. 2d 1056. 1064 (Fla. 2008); see also Fla.
R. Crim. P. 3.85l(d)(l)-(2). It was not. Rather, the record
shows that Rodgers knew of the gender dysphoria diagnosis
at some point between a February 26, 2016, evaluation
by a psychiatrist and the filing of the January 11, 2017,
successive postconviction motion at issue in Rodgers IV,
in which Rodgers argued that gender dysphoria rendered
Rodgers incompetent to enter prior waivers, including the

WESTLAW

penalty phase jury waiver that we held, in Rodgers IV,
precludes ”Hurst relief. Yet, Rodgers “d[id] not raise ...
gender dysphoria as a claim of newly discovered evidence or
ineffective assistance of counsel” in that proceeding. Rodgers
IV, 242 So. 3d at 279 (Pariente, J., concurring in result). Thus,
the December 4, 2018, successive postconviction motion at
issue in this appeal—in which Rodgers alleged that gender
dysphoria is newly discovered evidence of incompetency at
the time of the guilty plea and waivers—is time-barred.
[3] [4] Moreover, even without the time bar, the summary
denial was proper because the evidence at issue is not newly
discovered. Generally, to prevail on a newly discovered
evidence claim, two requirements must be met: “(1) the
evidence must not have been known by the trial court, the
party, or counsel at the time oftrial, and it must appear that the
defendant or defense counsel could not have known of it by
the use of diligence; and (2) the newly discovered evidence
must be of such a nature that it would probably produce an
acquittal on retrial.” Reed v. State. 116 So. 3d 260, 264 (Fla.
2013) (citing ' Jones v. State (Jones II), 709 So. 2d 512,
321 (Fla. 1998)). *1040 In Rodgers’case, the first prong of
Jones // ends the inquiry.
As detailed in Justice Pariente's concurring in result opinion in
Rodgers IV, the record conclusively establishes that Rodgers'
symptoms that are now attributed to gender dysphoria (e.g.,
severe depression, self-mutilation, reported suicidality) were
known to the courts that accepted and affirmed the validity
of Rodgers' plea and waivers. See Rodgers IV, 242 So.
3d at 277 (Pariente, J., concurring in result) (“[Bjoth the
trial court and this Court were aware of Rodgers' long
history of mental illness in determining Rodgers' competency
to make the waivers and in reviewing Rodgers' waivers,
respectively....”); see also id. at 278-80 (detailing the “record
indicating severe mental illness” in Rodgers' case). The
medical community's subsequent assignment of a name to the
cause of known symptoms is not newly discovered evidence,
but even assuming that it could be, the record conclusively
establishes that Rodgers failed to diligently pursue this claim.
As explained above, Rodgers became aware of the gender
dysphoria diagnosis at some point between February 2016
and January 2017 and alleged that gender dysphoria caused
incompetency in a January 2017 successive postconviction
motion, but waited until December 2018 to raise a newly
discovered evidence claim predicated upon gender dysphoria.
This falls short of the due diligence that

2020 Thomson Reuters. No claim to original U.S. Government Works.

Jones II requires.

2

Rodgers v, State, 288 So„3d 1038 (2019)
44 Fla. L. Weekly S251

Accordingly, because Rodgers' motion is time-barred and,
in any event, not based upon newly discovered evidence,
we affirm the circuit court's summary denial. In so doing,
we note that because Rodgers validly waived postconviction
proceedings and counsel, future filings should not be made on
Rodgers' behalf in the circuit court without first seeking leave
from the circuit court and explaining how the appointment
of counsel and the proposed filing are authorized in light of
Rodgers' valid waiver.

It is so ordered.

CANADY, C.J., and POLSTON, LABARGA, LAWSON,
LAGOA, and MUNIZ, JJ., concur.
All Citations
288 So.3d 1038, 44 Fla. L. Weekly S251

Footnotes
1
2

, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016); W Hurst v. State (Hurst), 202
’’ Hurst v. Florida,---- U.S.
So. 3d 40 (Fla. 2016).
“A successive rule 3.851 motion may be denied without an evidentiary hearing if the records of the case
conclusively show that the movant is entitled to no relief. See Fla. R. Crim. P. 3.851(f)(5)(B). This Court
reviews the circuit court's decision to summarily deny a successive rule 3.851 motion de novo, accepting
the movant's factual allegations as true to the extent they are not refuted by the record, and affirming the
ruling if the record conclusively shows that the movant is entitled to no relief.” Walton v. State, 3 So. 3d 1000,
1005 (Fla. 2009).

End of Document

©2020 Thomson Reuters. No claim to original U.S. Government Works.

WE5TLAW ® 2020 Thomson Reuters. No claim to anginal U.S. Government Works.

3

m THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR SANTA ROSA COUNTY, FLORIDA

STATE OF FLORIDA,
Plaintiff,
Case No: 1998-CF-0274

v.
JEREMIAH MARTEL RODGERS,

Defendant.

CO
133
■

•—5

7?:^"
m
r— r'A

C_
as.
3: :

re: o*>

—

-<>

ORDER DENYING DEFENDANT’S
SUCCESSIVE MOTION FOR POSTCONVICTION RELIEF

co

-T-j CtJ
“O

^

;;-rj “ •

3

. —rt CD ~X3

m

O
C/i

15, 2019, on Defendant’s “Motion for Postconviction Relief from Death Sentence under Hurst
Based on Newly Discovered Evidence” filed by and through counsel on December 4, 2018; the
“State’s Motion to Dismiss the Successive Postconviction Motion Reraising the Same
Claim/Answer to Successive Motion” filed on December 21, 2018; and Defendant’s “Response
to the State’s Motion to Dismiss” filed by and through counsel on January 4, 2019, all pursuant
to Florida Rule of Criminal Procedure 3.851. Having carefully considered Defendant’s motion,
the State’s answer, Defendant’s reply, the arguments presented at the case management
conference, the record, and applicable law, the Court finds that Defendant’s motion should be
denied without an evidentiary hearing.
Defendant also discharged

postconviction counsel and waived postconviction proceedings. See Fla. R. Crim. P. 3.850(i).

Page 1 of3

a o co

.-D

THIS CAUSE is before this Court after a case management conference held ofTJanuary

\

"*-2 o

OD

CD

Defendant waived the second penalty phase jury.

XT3 rr}

X3

CD
■i~

DD

***■

This Court and the Florida Supreme Court found the waivers to be valid. See Rodgers v. State
(Rodgers II), 3 So. 3d 1127, 1132-33 (Fla. 2009); Rodgers v. State (Rodgers III), 104 So. 3d
1087 (Fla. Oct. 17, 2012) (unpublished). Although Defendant is now claiming that the waivers
were not valid, such claims are not properly before this Court because the instant motion was not
timely filed. See Fla. R. Crim. P. 3.851(d)(1) & (2)(A); Jimenez v. State, 997 So. 2d 1056, 1064
(Fla. 2008) (“To be considered timely filed as newly discovered evidence, the successive rule
3.851 motion was required to have been filed within one year of the date upon which the claim
became discoverable through due diligence.”). Defendant raised similar claims in the successive
motion for postconviction relief filed in this Court on January 11, 2017, the denial of which was
per curiam affirmed by the Florida Supreme Court. See Rodgers v. State (Rodgers IV), 242 So.
3d 216 (Fla. 2018). Consequently, the waivers stand, and Defendant is not entitled to relief
under Hurst v. Florida, 136 S. Ct. 616 (2016), or Hurst v. State, 202 So. 3d 40 (Fla. 2016). See
Rodgers IV, 242 So. 3d at 276-77 (“We have consistently held that the Hurst decisions do not
apply to defendants, like Rodgers, who waive a penalty phase jury.”).
Accordingly, it is ORDERED AND ADJUDGED that Defendant’s “Motion for
Postconviction Relief from Death Sentence under Hurst Based on Newly Discovered Evidence”
is DENIED. Defendant has the right to appeal within 30 days of the rendition of this order.
DONE AND ORDERED in Chambers at the Santa Rosa County Courthouse, Milton,
Florida.
/
eSigneaby JOHN SIMON JR 01/18/2019 09:43:57 StaruPDQ

JOHN F. SIMON, JR.
CIRCUIT JUDGE
JFS/cl

[CERTIFICATE OF SERVICE ON NEXT PAGE]

Page 2 of3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and accurate copy of the foregoing Order Denying
Defendant’s Successive Motion for Postconviction Relief was furnished by e-Service (unless
otherwise indicated) to:

''ferri L. Backhus
Chief, Capital Habeas Unit
Office of the Federal Public Defender
Northern District of Florida
227 N. Bronough Street, Suite 4200
Tallahassee, Florida 32301-1300.
terri backhus@fd.org
••Kimberly L. Sharkey
Office of the Federal Public Defender
Tallahassee Division
215 West College Avenue
Tallahassee, Florida 32301-7751
kimberlv sharkev@fd.org
-Cftarmaine M. Millsaps
Senior Assistant Attorney General
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399-1050
capapD@mvfloridalegal.com .
charmaine.millsaps@mvfloridalegal.com
•'Clifton Drake
Assistant State Attorney
151 Cedar Avenue
Crestview, Florida 32536-2707
cdrake@sa01.org
cweeks@sa01.org

this

day of

,2019.

DONALD C. SPENCER, Clerk of Court
BY:
Deputy Clerk

Page 3 of3

Filing# 103114305 E-Filed02/11/2020 12:51:03 PM

Supreme Court of JTortba
TUESDAY, FEBRUARY 11, 2020
CASE NO.: SC19-241
Lower Tribunal No(s).:
571998CF000274XXAXMX
JEREMIAH M. RODGERS

vs.

Appellant(s)

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUNIZ, JJ.,
concur.
A True Copy
Test:

Joint A. Tomasino
Clerk, Supreme Court

kc
Served:
CHARMAINE M. MILLSAPS
KIMBERLY L. SHARKEY
TERRI LYNN BACKHUS
HON. DONALD C. SPENCER, CLERK
HON. JOHN FRANKLIN SIMON
CLIFTON DRAKE

